WAIVER

Supreme Court, U.S.
FILED

OCT 2 7 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 20-5964
Marlow McDonald

v. Jeff Titus, Warden, Rush City Correctional Facility
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certi orari unless one is requested by
the Court.
Please check the appropriate boxes:
Z Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my appearance
as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
Z I am not presently a memb of the B of this Court. Should a response be requested, the response will
be filed by a Bar
Signature:
Date: October 26, 2020
(Type or print) Name: Patrick R. McDermott
Z Mr.

n Ms.

❑ Mrs.

❑ Miss

Firm: Office of the Blue Earth County Attorney
Address: 401 Carver Road, PO Box 3129
City & State: Mankato, MN
Phone: 507-304-4600

Zip: 56002-3129
Email: Attorney@blueearthcountymn.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO. PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF
THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

RECEIVED
CC: Zachary A. Longsdorf, Attorney for Marlow McDonald

NOV 1 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

AFFIDAVIT OF SERVICE BY MAIL
Court File No. 07-CR-14-1678

STATE OF MINNESOTA
ss.
COUNTY OF BLUE EARTH
Lisa Seifert of the City of Mankato, County of Blue Earth, in the State of Minnesota,
being duly sworn says that on the 27th day of October, 2020, she served the Waiver Supreme
Court of the United States on Zachary A. Longsdorf, the attorney for Marlow Shelton
McDonald, the Defendant in this action, by mailing a copy thereof, enclosed in an envelope,
postage prepaid, and by depositing same in the Post Office at Mankato, Minnesota, directed to
said attorney at 5854 Blackshire Path, Ste 3, Inver Grove Heights, MN 55076, the last known
address of said attorney.

Subscribed and sworn to before me this
27th day of October, 202

Notary Public '1' )
ANA P ORDAZ ADAME
Notary Public
Minnesota
My Commission Expires January 31,2024

RECEIVED
NOV 1 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

OFFICE OF BLUE EARTH COUNTY ATTORNEY
PATRICK R. McDERMOTT
COUNTY ATTORNEY
Blue Earth County Justice Center
401 Carver Road
P.O. Box 3129
Mankato, MN 56002-3129
Tel. (507) 304-4600
FAX (507) 304-4620
Email: attorney@blueearthcountymn.gov

October 27, 2020

Zachary A. Longsdorf
Attorney at Law
5854 Blackshire Path, Ste 3
Inver Grove Heights, MN 55076
RE:

Marlow Shelton McDonald v Jeff Titus, Warden
No. 20-5964

Dear Mr. Longsdorf:
Enclosed herewith and served upon you by United States Mail, please find a copy of Waiver —
Supreme Court of the United States in the above-entitled matter.
Sincerely,

usan B DeVos
Assistant County Attorney
SBD/las
Enclosures

RECEIVED
NOV 10 2020
THE c! ERK
F. 1 5.5v
, ME COURT
tR r U.S.

AN EQUAL OPPORTUNITY EMPLOYER

